                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: I05080033                                                                         Page 1 of 1



                  On 20 May 2005 the National Science Foundation Office of Inspector General undertook a
          self-directed review of selected awards in an NSF program with substantial foreign travel.' After
          selection of this award2 for review, OIG sought additional information from the grantee.3

                 Review of the additional information submitted by the grantee suggested possible issues
          concerning participant support funds, lengthy per diem expenses in relation to the duration of the
          workshop, use of limousines for travel to airports, and repeated foreign travel after the workshop for
          purposes apparently unrelated to the grant objectives.

                  Upon further inquiry, the grantee provided satisfactory explanations as to the participant
          support funds, the per diem expenses, and the use of limousines. The principal investigator
          concurrently sought after-the-fact approval from the program officer for the post-workshop trips.
          The PO, who believed the trips were sufficiently connected to the purposes of the grant but noted
          that the trips were not mentioned in the final report, resolved the issue by approving submission by
          the PI of an amended final report that included a new section describing the post-workshop activities.

                    Accordingly, this case is closed.




          I
          3




                                                                                                                   a

NSF OIG Form 2 (1 1/02)
